I
I
    Department of Health and Human Services

I
I           OFFICE OF
I      INSPECTOR GENERAL




    THE AT-RISK   CHILD CARE PROGRAM




                    AUGUST   1993
                       OFFICE OF INSPECTOR                  GENERAL

The mission of the Office of Inspector Gcncrti] (OIG). as mandated by Public Law 95-452, as
anwndcd. is to protec[ the integri~y of the Dcpannlen( of Health and Human Senices’ (HHS)
progratws as well as the health and welfare of beneficiaries served by those programs. This
s[a[uton mission is carried m; through    a nationwide network  of audi[s, investigations. and
inspcctiom conducuxi by [hree OIG operating components: the Office of Audit Services, the
Office of investigations, and the Office of Evaluation and inspections. The OIG also inforrm the
Sccre[ary of I{HS of program ~nd managcmcn[ prob]ems and recommends courses [o correct them.

                           OFFICE OF AUDIT SERVICES

The OIG”S Office of Audit Services (OAS) provides all auditing ser~’ices for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and cent ractors in carrying OU[
their respective responsibilities and are intended (o provide independent assessments of HHS
programs and operations in order to reduce waste, abuse. and mismanagement and to promote
economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative investigations

of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment

by providers. The investigative efforts of 01 lead to criminal convictions. administrative

sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud control units which

investigate and prosecute fraud and patient abuse in the Medicaid program.


               OFFICE OF EVALUATION                    AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections) that focus on issues of concern to the Department, the

Congress, and the public. The findings and recommendations contained in these inspection reports

generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and

effectiveness of departmental programs. This report was prepared in the New York regional office

under the direct ion of Thomas F. Tull y, Regional Inspector General and Alan S. Meyer, Deputy

Regional Inspector General. Project staff


REGION II                                                      HEADQUARTERS


Joseph J. Corso, Jr., Project Leader                            Ruth   FoIchrnan

Joseph M. Benkoski

Demetra Arapakos

Lucille M. Cop


For additional copies of this report, contact the New York regional office at 212/244-1998.

Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




THE AT-RISK    CH LD CARE PROGRAM




           AUGUST   1993   OEI-02-92-O0140
              EXECUTIVE                             SUMMARY

P1”RPOSE

To du[cmlinc the extent and nature of States” participation   in the At-Risk Child Care
program and to describe their problems and successes with it.

13.4CKGROUND

The At-Risk Child Care program pro~’ides child care services for children (usually under
age 13) of low-income working families not receiving Aid to Families with Dependent
Children (AFDC). who need child care in order to accept or maintain employment, and
who would otherv’ise be at risk of becoming eligible for AFDC.

The program was enac[ed in November 1990. but was made effective October 1, 1990.
Final regulations give States considerable latitude in implementation. For example. they
can define “low income” and “at risk. ” Their participation is optional.

This program is one of several overseen and funded by the Administration for Families
and Children (ACF) in the Department of Health and Human Services (HHS). The other
child care programs include AFDC Child Care, Transitional Child Care, the Child Care
and Development Block Grant and a portion of the Social Services Block Grant used for
child care. Funding for the At-Risk program was $300 million in each of Fiscal Years
(FY) 1991 and 1992, and represented 15 percent of the $2.1 billion in total HHS funding
for child care programs in FY 1992. The ACF has encouraged States to coordinate all the
funding streams for child care so as to provide “seamless” service to families. This
means providing eligible parents access to and payment for child care services and
programs which respond to parents’ child care needs, even as eligibility changes over
time; services are provided without the necessity of changing the child care provider.

METHODOLOGY

We selected a purposive sample of 16 States: 12 drawn from those 45 with approved At-
Risk State plans and with At-Risk Child Care expenditures qualifying for !lmding in FYs
1991 and 1992; two from three with approved State plans but with no expenditures
qualifying for funding; and two of three which did not submit State plans for approval.
We then selected respondents purposively and interviewed them by phone. They included
State officials, local agency representatives, child care providers, and representatives of
advocacy groups. We analyzed, both qualitatively and quantitatively, State and local
documents and records and key interview responses by all respondent groups.




                                                i
DESPITE SLO\V START, 3!OST SA31PLE STATES !YO\Y EXPECT TO NIAKE
FULL USE OF AVAILABLE AT-RISK CHILD CARE FUNDS

Seven of the 13 sample States with At-Risk child Care programs drew down I%dcral
funds in FY 1991. The number increased to 12 of 13 in FY 1992. and all but 2 States
report serving more children in FY 1992 than in FY 1991. States initiated or increased
[heir spending in FY 1992 primarily because their legislatures made initial or additional
matching funds available. Twelve of the sample States with At-Risk programs expect to
qualify for all available Federal funds in FY 1993.

STATES REPORT TARGETING              FARIILIES hlOST AT RISK OF GOING ON
JYELFARE

The 13 sample States with At-Risk programs have set a wide range of income eligibility
scales for the At-Risk Child Care program, with ceilings for a family of four ranging from
$17,982 to $40,491. However. States believe they are serving the families in greatest
need of child care. In all 13 States, respondents estimate that most of the families actually
receiving services have annual incomes between $10,000 and $15,000.

STATES ARE COORDINATING  THE AT-RISK CHILD CARE PROGRAM                             WITH
OTHER SUBSIDIZED CHILD CARE PROGRAMS; SOME CONCERNS
EXPRESSED
                 t
States believe they are coordinating the different child care funding streams. However,
many State, local and advocate respondents feel that States are accomplishing this despite
funding and statutory variations among Federal funding streams which make them
fragmented, inconsistent and difficult to administer.

COMiIIENTS

We shared a copy of the draft of this repot-t with ACF and subsequently met with ACF
representatives to discuss their comments. All of ACF’S comments were technical in
nature, and corresponding changes have been incorporated into this final report.




                                              ii
                     TABLE                 OF        CONTENTS

                                                                                                     PAGE


EXECL’TIJ’E SU31\lARY


IXTRODUCT1031          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FINDINGS      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..4


 �   Despite slow start, Statcs~rill use all At-Risk funding           . . . . . . . . . . . . . .    . . . 4


 .Sta[es    are targeting fanli]ies m~st at risk .<...,...             . . . . . . . . . . . . . . . . . .5


 �   States prcwideseamless sen’ices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                          INTRODUCTION

P[;RPOSE

To dc[cmlinc the extent and nature of States’ participation in the At-Risk Child Care
program and to describe their problems and successes with it.

BACKGROUND

The At-Risk Child Care progrdm provides child care ser~ices for children (usually under
age 13) of low-income working families not recei~’ing Aid to Families with Dependent
Children (AFDC), who need child care in order to accept or maintain employmem, and
who w’ould otherwise be at risk of becoming eligible for AFDC. States” participation is
optional.

Federal Prosrams for Child Care

The .At-Risk Child Care program is one of several programs overseen and funded by the
Administration for Families and Children (ACF). Department of Health and Human
Services (HHS), to meet the child care needs of low-income families. The other child
care programs ACF oversees include:

   �	   the AFDC Child Care Prom-am, which supports current AFDC recipients’ efforts
        to participate in approved education and training activities to help them become
        self-sufficient and leave welfare. Funds are also available to AFDC recipients in
        families who need child care in order to accept or maintain employment:

   �	   the Transitional Child Care t-n-ocram, which provides up to 12 months of child care
        for recipients who leave AFDC due to increased income from employment or the
        loss of income disregards due to established time limitations;

   �	   the Child Care and Development Block Grant m-o~ram, which funds efforts to
        increase the availability, affordability and quality of child care, and provides
        additional funding for child care services; and

   �	   the Social Services Block Grant pro~ram, which is intended to serve a broad range
        of social service needs and is used by some States, in large part, to provide child
        care services.

Each of these programs constitutes a distinct HHS funding stream for child care services.
According to ACF, in FY 1992 the Child Care and Development Block Grant was funded
at $825 million (40 percent); the exact child care portion of Social Services Block Grant
funding is unknown but is estimated at $510.6 million (24 percent); and the AFDC and
Transitional Child Care programs at $437.9 million (21 percent). The At-Risk Child Care
funding represented the smallest portion (15 percent) of the $2.1 billion in total HHS


                                               1
funding. The ACF cstimmcs owr $24 billion in national spending for child care for all
children by all sources.

The AFDC and Transitional programs require a Staw to usc its funds as a match for
Federal funds at the State”s Fcdcriil Medical Assistance Percentage rate. This rate is
Mmmined by formulae using Dcpartmcm of Commerce statistics for State and national
pcr capita income.

The ACF has encouraged States to coordinate all the funding streams for child care so as
to provide “seamless” service to families. Basically, this means providing eligible parents
access to and payment for child care services and programs which respond to the parents’
child care needs, even as eligibility changes over time; ser~’ices are provided without the
necessity of changing the child care provider.

The At-Risk Child Care Program

Legislation and Regulations. The At-Risk Child Care program was part of the omnibus
Reconciliation Act of 1990 (OBRA 90). Section 402(i) was added to title IV-A of the
Social Security Act. Legislation was signed in November 1990, but was effective October
1. 1990. The Family Support Administration, ACF’s predecessor, sent instructions to
States on how to apply for At-Risk Child Care funding in December 1990. On June 25,
1991, ACF published a Notice of Proposed Rulemaking. States participate in the program
when they submit an At-Risk Child Care plan as an amendment to the State Supportive
Services Plan, and receive approval by the HHS Secretary.

The At-Risk Child Care final regulations, published on August 4, 1992, give States
considerable latitude in implementation. For example, they are permitted to define “low
income” and “at risk. ” Low income may be set at a percentage of the Federal poverty
level, a percentage of the State’s median income, or some other calculation. At risk may
be defined in terms of low income alone, or in combination with other “risk” factors
which the State may establish.

State Administration. The State agency responsible for administering or supervising the
State’s title IV-A Plan is also responsible for the At-Risk Child Care program. This
agency must submit its plan to the Secretary for approval, as an amendment to the State
Supportive Services plan.

Funding. Federal funding for the At-Risk Child Care program, in the form of Federal
Fimncial Participation, was $300 million in each of Fiscal Years 1991, 1992, and 1993.
A State’s share of the national total of available funds for a fiscal year is based on the
ratio of the number of its children under 13 to the national total of children under 13.
According to ACF this age limit is used because it conforms to age limits for the AFDC,
Transitional and Child Care Development Block Grant programs. Also, each State defines
its At-Risk population, making national, low-income population measures impractical.
States must expend their funds in cash at their Fedem-l Medical Assistance Percentage



                                              2

riiws, in order to rccciw IT-P. These cxpcndimrcs are reported to ACF on a quarterly
basis.

For its firs[ year, a Sti]te may request Fedcrd funds up to its limitation. The limitation
represents the State’s share by formula of the amount appropriated for the fiscal year. If
a State does not claim the full limitation, then the difference between the limitation and
[he total claims paid for the fiscal year is added to the next year’s limitation. The sum of
the second year’s limitation and the excess funds from the first year comprises the State’s
maximum grant. A State may claim its full maximum gmnt for the second year.

States may add to each year’s limitation only the amount that represents the difference
between the prior year’s limitation and the total in claims paid for the prior year. This
ensures that the statutory requirement is met, i.e.. that excess funds for one fiscal year are
only used for the immediately succeeding fiscal year.

Familv Contributions. The State IV-A agency must establish a sliding fee formula, based
on the family’s ability to pay, which provides for contributions from each family towards
the cost of care. The agency may waive contributions if a family’s income is at or below
the poverty level for a family of the same size. States have the option of collecting fees
from families or of having the family pay fees directly to providers.

Arraruzements for Services. A State may use any of several methods of payment to
provide care, while allowing the family the opportunity to choose the arrangement. if
more than one category of child care is available. Options include child care centers and
family child care providers.

METHODOLOGY

We selected a purposive sample of 16 States: 12 drawn from those 45 with approved At-
Risk State plans and with At-Risk Child Care expenditures qualifying for finding in FYs
1991 and 1992; two from three with approved State plans but with no expenditures
qualifying for funding; and two of three which did not submit State plans for approval.
This purposive sample permitted a selection of small, medium and large States with varied
patterns of participation and expenditures. The States with approved plans and with FFP
drawn”are Arkansas, California, Connecticut, Indiana, Massachusetts, Mimesota, New
York, North Carolina, Oklahoma, South Dakota, Texas, and Utah. Louisiana and West
Virginia were approved for funding in FY 1991 and FY 1992 but did not draw down
funds; Louisiana has not started an At-Risk Child Care program, while West Virginia
implemented its program in the first month of FY 1993. It has not yet been able to draw
down any Federal finds for At-Risk Child Care because that program is on a credit line
which is experiencing financial difficulty. Michigan and Tennessee did not apply for
funding in FYs 1991-1992. We selected the latter four States in order to learn why they
drew down no FFP or chose not to apply. The sample States’ expenditures qualified for a
total of $172.4 million in FFP for both FYs, representing 45 percent of all qualifying
expenses for that period. Twelve of the 13 States with At-Risk programs have



                                               3

implemented them Statewide: the other Swtc has sm’cral coun[ics which chose not to have
.4t-Risk programs.

.41116 sample States were contacted in March 1993 to Icarn the basis for their decisions
regarding the program. They provided related data and documents at our request. From
the 13 States with At-Risk programs, we sclcctcd a total of 92 rmpondcnts purposively
and interviewed [hem by phone during .April, May, and June 1993. They included 16
State officials. 16 local agency representatives, 40 child care providers, and 20
representatives of advocacy groups.

We analyzed. both qualitatively and quantitati\’ely, State and local documents and records
and key intemiew’ responses by all respondent groups.



                                 FINDINGS

DESPITE SLOW’ START, N40ST SAhfPLE STATES NOW EXPECT                        TO MAKE
FULL USE OF AVAILABLE AT-RISK CHILD CARE FUNDS

Only seven of the 13 sample States with At-Risk programs drew down Federal At-Risk
funds in FY 1991. However. this increased to 12 States in FY 1992. The total amount of
At-Risk expenditures by the 13 States in FY 1991 was $46.1 million, which qualified for
47 percent of available Federal funds. In FY 1992, expenditures nearly tripled, resulting
in the use of 76 percent of available funds for both years. (See Table 1 below. ) Eleven
of the 12 States with data report serving more children in the At-Risk Child Care program
in FY 1992 than in FY 1991. One State reports serving the same number.

The experience of the sample States is similar to the national experience. For FY 1992,
48 State At-Risk Child Care programs (including the District of Columbia) were approved
for finding. According to ACF, through May 1993, 45 States have reported expenditures
eligible for $406.1 million in FFP. This represents 68 percent of the $600 million
available for FYs 1991-92. Most of these expenditures ($309 million) took place in FY
1992.

For the first half of FY 1993, all sample States with At-Rkk programs report expenditures
totalling $56.5 million. All but one of these States expect to qualify for the full amount of
Federal funds in FY 1993.

A number of factors appear to have contributed to the slow start. As noted earlier, At-
Risk Legislation was signed in November 1990, but was effective October 1, 1990. The
Family Support Administration, ACF’S predecessor, sent instructions to States on how to
apply for At-Risk Child Care finding in December 1990. On June 25, 1991, ACF
published a Notice of Proposed Rulemaking. Thus, States could not implement the At-
Risk Child Care program when it was first effective. States also needed time to
appropriate State matching fimds, further delaying implementation. According to most


                                              4
respondents, states  initiated or incrcascd  their expenditures in FY 92 primarily because
[heir legislatures made initial or additional matching funds available. This allowed them
K) establish or expand [heir programs. In some States with county-administered programs,
some counties experienced further delays because States were S1OWto disburse At-Risk
Child Care funds to them.

The three sample Staws without A[-Risk programs cite a ]UCk of available State funding as
the primary reason for not implementing a progmrn in FY 1991 and FY 1992. However.
one has had its program approved and is providing services; another is awaiting ACF
approval of its program. The third continues to lack matching funds and does not expect
to have an At-Risk program in FY 1993.


STATES REPORT TARGETING              FAhIILIES     N1OST AT RISK OF GOING ON
JYELFARE

The 13 sample States with At-Risk programs have set a wide range of income eligibility
scales for the At-Risk Child Care program. Their ceilings for a family of four range from
$17,982 to $40,491. (See Table 1 below. ) However, States believe they are serving the
families in greatest need of child care. In all 13 States, respondents estimate that most of
the families actually receiving services have annual incomes between $10,000 and
$15,000. One State respondent says that families at the high end of the income eligibility
scale do not even apply for At-Risk child care. As a family’s income increases, it is
required to pay a greater percentage of its child care fees.

States have set their income eligibility ceilings for different reasons. For example, some
with high eligibility ceilings chose a percent of their State median income which matched
the liberal rate previously set for their own State-subsidized child care programs. Most
States also have the same income eligibility levels for their At-Risk and block grant child
care programs. Another State chose its level to allow families to remain eligible if their
income increased, but they still needed some subsidized child care. Others established
their levels because of the high cost of living, coupled with high child care costs, in their
States. In two of the latter States, income eligibility ceilings are high, but families must
have incomes of under $27,000 to establish initial eligibility. (See Table 1 below.)

States have made various efforts to serve the neediest families, as illustrated by their
experience with waiting lists for child care and outreach activities:

1.     Eight States have general waiting lists for all of their subsidized child care
       programs with eligible At-Risk Child Care families currently on them. Seven of
       these give priority to what they deem to be the most vulnerable families. In four
       of these States, families previously on AFDC, including former Transitional Child
       Care recipients and caretakers without a high school diploma or GED, are placed
       on the top of the list; those families not previously enrolled in any subsidized child
       care program are given lower priority. In the three remaining States with county-



                                               5
                                      TABLE 1
              SA31PLE STATE CHARACTERISTICS    RAXKED BY LNCONIE
                   ELIGIBILITY CEILINGS FOR A FAhfILY OF FOUR

.,.------
       ,.-—-.                       .. . . ------- ..—..-
          ~---—.—--- ------.-.-,— .—.                  .--——. .—.,.-e       ..-.. s-—_..-.   -—&..”,
                                                                                                  —-..—-. —-
     S                                                               ,   SOURCE OF
    T    EXPEND-         EXPEND-                                                               ~TCOhiE
                                                           FAIAP             BASE
    A     ITURE            ITURE                                                             ELIGIBILITY
                                                             %             LNCONIE
    T      % 91             % 92                                                              CEILINGS
                                                                            AYD 70
    E
,———-.————-—  ---—--——-
                      ..                                                    —.————. ._—_—             ...—
   xc            100             60                            66           57%SM1   $17,982#
 ..—— .———— _            .-                                                     ——— ———...                   —
   AR              o	            13                            74         S1.i38/MO            $18,460#
   OK                       0                                  70         $1.674/MO            $20,088#          ~

                            o                     0            77           60%SMI

   SD                       o                    13            71           150%FPL            $21,600#          ~
   TX                      25                   67             64;          150%FPL            $21,600#          ~
   UT                      75                   22             75 :         59%SMI             $22,793#          ~
   IN                       o                     51           63           190%FPL            $27,360#          i
:KY’                     100:                  100 I           50 ~        200%FPL       ~     $28,800#          ~


CA                          o’                200      I       50 /          84%SMI      \                       :
                                                                                               $37,955#
CT                         75                 125” i           50 ~         50%SMI       :    $26,965+ +         ‘!
                                                                                         I      $40,448          ~
~ MA      ;               100,                 100             50    i       50%SMI      !    $26,994+ +         ~
I         I                                                                                     $40,491          ~

      Eligibilityin theseStatesbegins at or below these income levels and ends when these levels are

      exceeded.

++    The income for a family of four must be below these levels to establish eligibility; thereafter, income

      may increase to the second figure before eligibility may be terminated.

*     Includes prior year FFP not previously matched.

FMAP: Federal Medical Assistance Percentage (matching) rate: averaged for the two years and rounded

SM1: 1992/1993 State Median Income - family of four

FPL: 1992 Federal Poverty Level - family of four: $14,400





                                                           6
       administered programs. priority u’as gilwn to the neediest fdmilies in some counties
       where former Transitional Child Cart recipients and low-income fami!ics are
       targeted. A Stute respondent underscores this priority process, stating: “WC
       always try to reach (he low-income families just off or rcccntly off AFDC. They
       get first priority for this program. ” Another State respondent offers: “It”s my
       sense that most At-Risk families are former TCC recipients. ”

-)
-.
     Respondents from 12 of the 13 States mention (hat they ad~’ertise their subsidized
        child care programs, including the At-Risk program, primarily to the neediest
        f~mi]ies. For example. they focus their publicity efforts on low-income
        communities, welfare offices and Food Stamp offices.


STATES ARE COORDINATING  THE AT-RISK CHILD CARE PROGRAhi                              WITH
OTHER SUBSIDIZED CHILD CARE PROGRAhlS; SOhlE CONCERNS
EXPRESSED

States report thal they are providing seamless citi[d care services

All of the State respondents from the 13 States with At-Risk Child Care programs believe
that their States are coordinating the different child care funding streams. Five States
have established either a single government unit for the different child care programs or
combined the administration of them. Four States have promoted good relations between
different State agencies and with child care providers and advocates. For example, they
have established State child care task forces or cabinets. One State respondent says, “We
brought partners together that never really talked before. ”

 States’ administrative processes have also enhanced coordination. The designated State
 IV-A agency directly administers the At-Risk Child Care program in six of the 13 States;
 in the remaining seven, the agency contracts with outside agencies, including other State
 offices and resource and referral agencies, to administer part or all of the program. In
 one State, child care provider organizations operate the program on a day-to-day basis
 under contractual arrangements with the State. In another, each county has a local
 council, comprised of schools, local government, nonprofit agencies, providers and
 consumers, which conducts needs assessments and develops a plan of action. These
 councils, directly or by contract, also coordinate the different child care funding streams,
 determine eligibility and process applications.

 Most States utilize the same policies on income eligibility, payment rates and sliding fee
 scales for At-Risk Child Care, and Child Care Development and Social Services Block
 Grants. (See Table 2 below). Families, therefore, are able to retain or change providers
 without being burdened with how, and by whom, their child care is subsidized. One State
 respondent says, “We’ve attempted to make funding streams invisible to families and
 providers. ”




                                               7
                                       TABLE 2
      STATES’ POLICIES OX CCDBG AXD SSBG lNCO\lE                                  ELIGIBILITY,     PAY\lEXT RATES,
            AND FEE SCALES CO\lPARED IVITH THOSE                                  FOR AT-RISK      CHILD CARE


      POLICIES                                               STATE RESPONSES
                          . .                     . .                           . . ... . . .. .                       . . ....
                                                                                                       .. .,--- .-. . ...
SA31E AS AT-RISK?
          -. .   .- .. AR
                       .. —–.
                                  CA      CT..—... IN .. —
                              ...— .—. ... —–
                                                         31A
                                                           —.—  .... 31N
                                                                      ——.
                                                                               xc N’ OK SD.— ..-—
                                                                         .... ..—_._.,.— ...—..—. ——.
                                                                                                         ~ T?i _ ,...—.—
                                                                                                                     UT
                                                                                                                      ——  ..——— \?’V...

  CCDBG I?JCOhfE        YNYYYYY                                                     Y          YYY’YY
    ELIGIBILITY
    —.                                                                                                   —..                .—.. —..—
                                            — .. ——   ,.—..—......        -..—.—..— ,..-–—.-.—.—-—<.
 CCDBG PAYMENT          Y          N       Y        Y     Y           Y         Y       N      Y     YYY”             Y
       RATES                                                               .—.—.. ._.. — .—               —:.      ——.
     CCDBG FEE           YY’Y’YYY’Y                                                   ‘YY’YY:Y:              :Y:
       SCALES                                                                           1
                    ... . ...,_____ ...
           .—-.. ————             .. .   . _____ ...__— ,,—    _._. —._ —_____
                                                                           ..—,  ~       ~
     SSBG INCOME   ‘Y     NA*YY:NA’YY:                            NY         NAi    YjYY
      ELIGIBILITY                                             I—                 I
                 — .—.—,      —.     .—~          —      —            —    —     -..__.4.___U
                                                                                         !
    SSBGPAYMENTYi       NA’Yj          N: NA’Yi            NY,       Y;NA        jY~Y         ~Y
         IUTES     :    !            [                         1                                              I      1
                 .-         _       .   ..   .—;     —       ~—               u       ——                       .—


      SSBG FEE    tY~NA\Y\YINA~Y~                                               Y~YY~NAIYJY’Y                                         ~
        SCALES    !.—- ~——- ..—
                             ‘ —~                           ~       I        l~,i]~~l
    —-.
     .— _ .——
            —————_J
                 —__              J ~.~                             ~         -      —. —.; -—               J——=J~
*      The designation “NA” represents “Not applicable, ” as the State does not use SSBG funds for child care.


              Several States also sequence the different child care funding streams. Four States use all
              of their block grant money before drawing down funds for matching programs. Eight
              require that families use Transitional Child Care before receiving At-Risk services.
              Several of these eight States automatically inform Transitional Child Care recipients that
              they are eligible for At-Risk services once their Transitional benefits have expired.

              Concerns exist about the variation among different child care funding streams

              While States believe they are effectively coordinating the At-Risk Child Care program
              within their States to provide seamless services, it is not without difficulty. Many State,
              local and advocate respondents feel that States are accomplishing this despite funding and
              statutory variations among Federal funding streams which make them fragmented,
              inconsistent and difflcuh to administer.

              COMMENTS

              We shared a copy of the draft of this report with ACF and subsequently met with ACF
              representatives to discuss their comments. All of ACF’S comments were technical in
              nature, and corresponding changes have been incorporated into this final report.
